                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-FM-IB-14-22                                  Office of Audits                                        April 2014




   Audit of Broadcasting Board of Governors

     FY 2013 Compliance With Improper

            Payments Requirements





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                                              Unite d State Departm e nt of S ta te
                                                              and the Broadc a s ting Board of Govern ors

                                                              Office of Inspector General




                                            PREFACE

        This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
acco untability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agenc ies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft w ith those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

       I express my appreciation to al l of those who contributed to the preparation of this report.




                                              Norman P. Brown
                                              Assistant Inspector General
                                               for Audits
                                 UNCLASSIFIED 



Acronyms
BBG        Broadcasting Board of Governors
IBB        International Broadcasting Bureau
IPERA      Improper Payments Elimination and Recovery Act of 201 0
IPIA       Improper Payments Information Act of 2002
IPERlA     Improper Payments Elimination and Recovery Improvement Act of 2012
OCB        Office of Cuba Broadcasting
OIG        Office of Inspector General
OMB        Office of Management and Budget
PAR        Performance and Accountability Report
RFA        Radio Free Asia
VOA        Voice of America




                                 UNCLASSIFIED 

                                                           UNCLASSIFIED 



                                                        Table of Contents

Section 


Executive Summary ......................................................................................................................... 1 


Background..................................................................................................................................... 2 


Objective........................................................................................................................................ 4 


Audit Results ................................................................................................................................. 4 

       Finding A. BBG Was in Substantial Compliance With IPIA .............................................. 4 

       Finding B. Improvements in BBG Efforts To Prevent, Detect, and Recapture Improper 

       Payments Are Needed ....................................................................................................... 6 


Appendices 

      A. Scope and Methodology ............................................................................................... 10 

      B. BBG Management Response ........................................................................................ 12 


Major Contributors to This Report ................................................................................................ 14 





                                                           UNCLASSIFIED 

                                               UNCLASSIFIED


                                           Executive Summary

        Improper Federal payments totaled an estimated $106 billion in FY 2013. Over the past
decade, the Federal Government has implemented safeguards to reduce improper payments. In
2010, the Improper Payments Elimination and Recovery Act 1 (IPERA), which amended the
Improper Payments Information Act of 20022 (IPIA), was signed into law. IPERA strengthened
IPIA by increasing requirements for identifying and reporting on improper payments. In April
2011, the Office of Management and Budget (OMB) issued guidance to implement IPERA.

       IPIA, as amended by IPERA3 requires agencies' Offices of Inspector General (OIG) to
annually determine compliance with improper payments requirements. 4 In accordance with this
requirement, OIG conducted an audit of the Broadcasting Board of Governors (BBG)
compliance with IPIA.

        OIG found that BBG was in substantial compliance with IPIA requirements.
Specifically, BBG conducted an improper payments risk assessment of its programs and made
the required im?roper payments disclosures in its FY 2013 Performance and Accountability
Report (PAR).

        Although BBG complied with IPIA requirements, OIG found that BBG's improper
payments risk assessment identified high improper payment error rates, including a 15.7 percent
error rate and a potential $7.8 million in improper payments for one program. The high error
rates occurred primarily because of insufficient or incomplete supporting documentation. These
documentation deficiencies prevented BBG from verifying that payments were proper. In
addition, BBG did not notify OMB and OIG of its decision not to perform payment recapture
audits and provide the analysis used by BBG to reach this decision, as required. BBG planned to
make the notifications after it updated the process and risk analysis documentation used to
support its cost-benefit analysis. Without the proper notifications, OMB and OIG could not
independently assess and validate BBG's determination that payment recapture audits would not
be a cost-effective method for identifying and recapturing improper payments.

        OIG is recommending that BBG strengthen its controls to ensure that it obtains and
maintains sufficient and complete supporting documentation for payments and make the required
notifications to OMB and OIG ofBBG's decision not to perform payment recapture audits.

        In its April 7, 2014 response (see Appendix B) to the draft report, BBG concurred with
the two recommendations. Based on the response, OIG considers the two recommendations
resolved, pending further action. Management's response and OIG's replies to those responses
are included after each recommendation.

1
  Pub. L. No. 111-204. 

2
  Pub. L. No. 107-300. 

3
  Unless otherwise indicated, the term "IPIA" means "IPIA, as amended by IPERA" in this report. 

4
  Pub. L. No. 111-204 § 3(b).                           ·

5
  Federal agencies may publish their financial statements in either an Annual Financial Report or a Performance 

Accountability Report. BBG has elected to use the PAR format. 



                                                         1

                                               UNCLASSIFIED 




                                                 Background

        Improper Federal payments to individuals, organizations, and contractors totaled an
estimated $106 billion during FY 2013. 6 Improper payments are payments that should not have
been made or that were made in an incorrect amount. Improper payments include overpayments
and underpayments, duplicate payments, payments made to an ineligible recipient, payments for
an ineligible good or service, payments for goods or services not received (except for such
payments authorized by law), payments that do not account for credit for applicable discounts,
and payments for which an agency cannot determine whether the payments were proper because
of insufficient or lack of supporting documentation.

         Over the past decade, the Federal Government has taken steps to identify and reduce
improper payments. For examfle, IPIA, enacted in 2002, required Federal agencies to annually
review programs and activities to identify programs that may be susceptible to significant
improper payments, estimate the annual amount of improper payments, and report the actions
taken to reduce improper payments. In July 2010, IPERA, which amended IPIA, was enacted in
an effort to further reduce improper payments. IPERA clarified the programs to be reviewed,
added a requirement to perform risk assessments, and expanded improper payments recapture
activities. IPERA also required inspectors general to determine whether an agency was in
compliance and established additional requirements for agencies deemed noncompliant.

       In April 2011, OMB issued guidance for agencies implementing IPERA requirements, as
Appendix C, Revised Parts I and II, of OMB Circular A-123, Management's Responsibility for
Internal Control. 8 The guidance, among other things, defined the programs and payments that
agencies must assess for the risk of improper payments and provided requirements for
determining whether the risk of improper payments was significant, for developing an estimate
of improper payments, for performing recapture audit activities, and for reporting improper
payments activities.

       In January 2013, the Improper Payments Elimination and Recovery Improvement Act of
     9
2012 (IPERIA) was enacted. IPERIA further amended IPIA by requiring, among other things,
that OMB identify high priority Federal programs for greater levels of oversight and review,
provide guidance to agencies for improving estimates of improper payments, and establish a
working system for prepayment and preaward review. IPERIA became applicable in FY 2014
(October 1, 2013).




6
  Sean Reilly, "Improper payment rate falls again," Federal Times, Dec. 31,2013. 

7
  The term "program and activity" will be referred to in this report as "program." 

8
  OMB Circular A-123, Appendix C, Revised Parts I and II, will be referred to in this report as Circular A-123, 

Appendix C. 

9
  Pub. L. No. 112-248. 



                                                          2

                                               UNCLASSIFIED 


BBG Mission and Organization

        BBG, an independent Federal agency, supervises all U.S. Government-supported civilian
international broadcasting. BBG's mission is to inform, engage, and connect people around the
world in support of freedom and democracy. The BBG Federal broadcasting organizations
include the Voice of America (VOA) and the Office of Cuba Broadcasting (OCB), as well as the
management and support offices in the International Broadcasting Bureau (IBB). BBG also
oversees three grantee organizations: Radio Free Europe/Radio Liberty, Radio Free Asia (RFA),
and the Middle East Broadcasting Networks. Radio Free Europe/Radio Liberty, RFA, and
Middle East Broadcasting Networks receive funding from the Federal Government but are
organized and managed as private nonprofit corporations.

       BBG's Chief Financial Officer serves as BBG's principal financial and budget officer.
The Chief Financial Officer is responsible for, among other things, overseeing all financial
management activities relating to BBG programs and operations, establishing effective financial
management policies and management controls, and ensuring that BBG is in compliance with the
requirements of Executive orders and OMB circulars.

         Within the Office ofthe Chief Financial Officer, the Office of Financial Operations is
responsible for the daily financial operations, accuracy of financial management records, prompt
processing of payments, collection of accounts receivable, liaison with servicing agencies, and
facilitation ofBBG's annual financial statement audit. The Office of Financial Operations
Financial Services Branch processes payments that are initiated by BBG's domestic offices,
while the Department of State processes fayments initiated by BBG's overseas locations.
During FY 2013, BBG reported outlays 1 amounting to approximately $717 million. Of that
amount, payments of approximately $444 million to private sector vendors and grantees were
subject to the improper payments requirements of IPIA. 11

Prior OIG Reports

       In FY 2013, OIG reported 12 that BBG had implemented all requirements for identifying
and reporting data on improper payments. Specifically, BBG performed a risk assessment of
improper payments, implemented a payment recapture audit program, and included all required
information in its PAR. 0 IG did not make any recommendations in the report.




10
   Outlays include the issuance of checks, the disbursement of cash, or the electronic transfer of funds made to 

liquidate a Federal obligation. 

11
   OMB Circular A-123, Appendix C, defines "payment" as "any payment or transfer of Federal funds to any non­

Federal person or entity." Therefore, agencies are not obligated to review intra-governmental transactions and 

f:ayments to employees unless directed to do so by OMB. 

 2
   Audit ofBroadcasting Board ofGovernors FY 2012 Compliance With Improper Payments Requirements (AUD­
FM-IB-13-24, March 2013).


                                                         3

                                             UNCLASSIFIED 



                                                Objective
       The overall objective of this audit was to determine whether BBG was in compliance
with IPIA. To accomplish this objective, OIG

     • 	 Evaluated whether BBG had conducted a risk assessment for significant programs.
     • 	 Determined whether BBG had reported the required improper payments information in
         its FY 2013 PAR.

      OIG also evaluated BBG's controls for preventing, detecting, and recapturing improper
payments.

                                             Audit Results

Finding A. BBG Was in Substantial Compliance With IPIA

       OIG found that BBG was in substantial compliance with IPIA requirements. OMB
Circular A-123, Appendix C, states that to be in compliance with IPIA, an agency must have
conducted a program specific risk assessment for each pro~ram, published a PAR, and reported
information on its efforts to recapture improper payments. 3 BBG conducted an improper
payments risk assessment of its significant programs and reported the required improper
payments information in its FY 2013 PAR.

Program Risk Assessments Were Performed

        IPIA requires that agencies use a systematic method to review all programs and identify
those programs that may be susceptible to significant improper payments. OMB Circular A-123,
Appendix C, defines significant improper payments as gross annual improper payments in a
program exceeding (1) both 2.5 percent of program outlays and $10 million of all program
payments made during the fiscal year or (2) $100 million. Agencies can use either a quantitative
evaluation methodology based on a statistical sample or a qualitative assessment of risk factors
likely to contribute to significant improper payments. For programs that an agency initially
determines are not risk susceptible, the agency must conduct a risk assessment at least once
every 3 years thereafter.

       During FY 2012, BBG performed an initial risk assessment of its seven programs. 14
Based on the results of its FY 2012 risk assessment, BBG did not identify any programs
susceptible to significant improper payments as defined by OMB Circular A-123, Appendix C.



13
  OMB Circular A-123, Appendix C, includes other requirements for an agency to be in compliance with IPIA.
However, these requirements are necessary only for programs identified as susceptible to significant improper
Eayments.
4
  The seven programs identified by BBG were VOA; OCB; Radio Free Europe/Radio Liberty; RF A; Middle East
Broadcasting Networks; IBB; and the Office of Technology, Services, and Innovation.


                                                      4

                                              UNCLASSIFIED 



Although not required to, 15 BBG elected to perform a risk assessment on its programs again in
FY 2013. BBG first performed a qualitative assessment of the seven programs. BBG rated each
of the programs on a scale of 1 to 5, with 1 defined as "very high risk" and 5 defined as "very
low risk," for eight risk factors: Operational Risk, Complexity, Volume of Payments, Human
Capital Risk, Historical Risk, Information Technology Risk, Compliance Risk, and Total Dollar
Value. BBG calculated the average of the eight factor ratings to arrive at the overall risk for the
program. The overall risk for the seven programs ranged from 2.88, moderate risk, to 4.89, very
low risk.

         A BBG contractor then performed quantitative testing of four higher risk programs:
RF A, VOA, IBB, and OCB. To perform the quantitative analysis, the contractor tested a
statistical sample of expenditures made during FY 2012 for RFA, VOA, and IBB and
expenditures made during the first three quarters of FY 2013 for OCB. As detailed below in
Table 1, the contractor tested 486 payments in total, less than 1 percent, of the 255,456 payments
made for the four programs, but these payments amounted to approximately $48.7 million, or 38
percent of the approximate $129 million in payments.

T a ble 1. Resu Itsof T esting t h e H"1g1hes t Risk P rograms b•Y BBG C on t raet or
                                                                            Number of        Value of
                 Total       Total Value of Sample Total Value of           Improper        Improper
     Program   Payments        Payments      Tested Sample Tested           Payments        Payments
 RFA                   19        $44,737,916     19    $44,737,916                  0                 $0
 VOA              209,538         49,539,269   145       1,769,370                 34            41,610
 IBB               41,585         25,468,847   177       1,786,082                 50            26,447
 OCB                4,314          9,393,850   145         375,285                 51            15,218
      Totals      255,456       $129,139,882   486     $48,668,653               135            $83,275
Source: OIG prepared from data provided by BBG.

        Based upon improper payment estimates prepared by BBG's contractor, BBG identified
projected improper payments of$7.8 million (15.7 percent), $1.1 million (4.3 percent), and
$382,629 (4.1 percent) for VOA, IBB, and OCB, respectively. This information was reported in
BBGs FY 2013 PAR.

        Although three of four programs tested-VOA, IBB, and OCB-had error rates greater
than 2.5 percent, the dollar amount of projected errors for each program was less than
$10 million. Therefore, based on its qualitative and quantitative risk assessments for FY 2013,
BBG did not identify any programs susceptible to significant improper payments as defined by
OMB Circular A-123, Appendix C.




15
  Agencies are not required to perform an annual risk assessment for programs deemed not risk susceptible unless
the programs experience a significant change in legislation or a significant increase in their funding level.


                                                        5

                                               UNCLASSIFIED 


Required Improper Payments Information Was Reported

        OMB Circular A-123, Appendix C, requires agencies to disclose specific information
relating to improper payments in their annual PAR in the format provided in OMB Circular A­
136, Revised, Financial Reporting Requirements.

        BBG disclosed the required improper payments information in its FY 2013 PAR.
Specifically, BBG published an FY 2013 PAR and posted that report on its Web site. In
accordance with OMB Circular A-136, BBG included in its PAR a list of its programs and a
description of its process to identify programs susceptible to significant improper payments.
BBG also completed and presented improper payment reduction and recaptured overpayment
tables in accordance with OMB requirements.

Finding B. Improvements in BBG Efforts To Prevent, Detect, and Recapture
Improper Payments Are Needed

        Although BBG was in substantial compliance with IPIA, OIG identified two areas in
which BBG' s efforts to prevent, detect, and recapture improper payments needed improvement.
Specifically, despite BBG's controls to prevent improper payments, BBG's improper payments
risk assessment identified high improper payment error rates, including a 15.7 percent error rate
for one program. The high error rates occurred primarily because payment documentation was
insufficient or incomplete. As a result, BBG could not verify that its payments were proper. In
addition, BBG did not notify OMB and 010 of its decision not to perform payment recapture
audits, as required. Without the proper notifications, OMB and OIG could not independently
assess BBG's determination that payment recapture audits would not be cost effective.

High Improper Payment Error Rates Were Identified

        OMB Circular A-123, Appendix C, states, "Agencies shall have a cost-effective program
of internal control to prevent, detect, and recover overpayments." Prevention activities are
designed to prevent improper payments from occurring.

        BBG's quantitative risk assessment procedures identified high improper payment error
rates. Specifically, the error rate for VOA was 15.7 percent, the error rate for IBB was 4.3
percent, and the error rate for OCB was 4.1 percent. Based on these error rates, BBG estimated
potential improper payments of $7.8 million for VOA, 16 $1.1 million for IBB, and $383,000 for
OCB.




16
  BBG stated in its !PERlA Compliance Process document (p. 4), "The VOA sample error rate was larger than the
expected error rate of 3.5%; therefore, the result is not statistically valid. Based on an error rate of 15.72%, the
sample size would have to increase from 145 payments to 574."


                                                          6

                                       UNCLASSIFIED



        BBG had implemented controls to prevent improper payments. For example, BBG's
Manual of Operations and Administration required, among other things, that the program office
receiving the goods or services stamp the invoice to certify receipt. The program office
administrative officer must then certify funds availability, the obligation document number, the
obligation line number, the dollar amount, and the receiving official's signature and telephone
number. In addition, the payment office must audit the invoice "to ensure that there is a valid
obligation for the payment, it is a proper invoice, the required invoice stamp is completed and
signed, and supporting documentation is attached to the invoice."

        Despite these controls, BBG's analysis of the improper payments identified during the
quantitative risk assessment indicated that the majority of the payments were identified as
improper because of insufficient or incomplete supporting documentation. Specifically, BBG
did not have complete documentation to support some payments, and the documentation that was
available did not have the required signatures or dates.

        The lack of sufficient and complete documentation prevented BBG from verifying that
the payments were proper and, if the payments were overpayments, from taking appropriate
actions to recover the improper payments. In addition, VOA's improper payment error rate of
15.7 percent was significantly above OMB's 2.5 percent threshold, and the projected improper
payments of $7.8 million, although below the $10 million threshold, were significant enough to
be of concern. If the deficiencies in payment documentation are not addressed and estimated
improper payments increase, BBG will be required to identify VOA as a program susceptible to
improper payments, which would trigger additional corrective actions and reporting under IPIA.

       Recommendation 1. OIG recommends that the Broadcasting Board of Governors
       (BBG) develop and implement a methodology to strengthen its controls to ensure that
       BBG obtains and maintains sufficient and complete supporting documentation for
       payments.

       Management Response: BBG concurs with the recommendation, stating that "planning
       is underway to address the issues of concern" by improving documentation, process
       enhancement, and/or additional oversight. BBG will implement "a Corrective Action
       Plan to begin remediation of improper payments discovered during audit."

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has designed
       and implemented controls to reduce the risk of improper payment, as demonstrated by the
       results of internal and external payments controls testing.

Required Notifications Were Not Made

         IPIA requires agencies to conduct recovery audits (also known as "recapture audits") for
each program that expends $1 million or more annually if conducting such audits would be cost
effective. OMB Circular A-123, Appendix C, defines a payment recapture audit as "a review
and analysis" of records, supporting documentation, and other information supporting payments
that is specifically designed to identify overpayments. Agencies may exclude payments from

                                                7

                                               UNCLASSIFIED 


payment recapture audit activities if the agency determines that payment recapture audits are not
a cost-effective method for identifying and recapturing improper payments. However, if
agencies decide to exclude payments from programs expending $1 million or more from
payment recapture audits, agencies must notify OMB and OIG and include any analysis used to
reach that decision.

        BBG stated that it did not perform payment recapture audit activities in FY 2013. 17 BBG
contracted with a certified public accounting firm to perform recapture audit services and to be
compensated on a contingency-fee basis. BBG reported that the contractor had performed data
mining to identify potential high-risk payments. However, the amounts of the payments
identified were too immaterial to warrant further research, and the contractor determined that it
would not be cost effective for BBG to pursue a recapture audit process.

        BBG appropriately described in its PAR its justification for not conducting a payment
recapture audit. However, BBG did not, as required, notify OMB and OIG of its decision and
provide the analysis used to reach this decision. BBG stated that it would notify OMB and OIG
of its decision not to perform recapture audits in FY 2013, as required, and would provide
documentation to support this decision.

        Without the required notifications, neither OMB nor OIG could independently assess and
validate BBG's determination that payment recapture audits would not be a cost-effective
method for BBG to identify and recapture improper payments.

         Recommendation 2. OIG recommends that the Broadcasting Board of Governors
         notify the Office of Management and Budget and OIG of its determination that
         performing payment recapture audits for its programs in FY 2013 was not cost effective
         and provide the cost-benefit analysis supporting this determination.

         Management Response: BBG concurs with the recommendation, stating that it is
         currently preparing its submission to OMB and OIG.

         OIG Reply: OIG considers the recommendation resolved. This recommendation can be
         closed when BBG provides notification and supporting documentation to OIG and
         provides evidence that this information was also provided to OMB.




17
   Although BBG stated that it had not performed payment recapture audits, OIG noted that the payment testing
performed during the quantitative risk assessment process met the OMB definition of a payment recapture audit.
Specifically, the testing included a review of payment records and other supporting documentation. In addition,
although the testing was performed to identify all types of improper payments, the contractor specifically identified
overpayments during this testing. However, this assessment was not performed on three ofBBG's seven programs.


                                                          8

                                       UNCLASSIFIED


                                 List of Recommendations

Recommendation 1. OIG recommends that the Broadcasting Board of Governors (BBG)
develop and implement a methodology to strengthen its controls to ensure that BBG obtains and
maintains sufficient and complete supporting documentation for payments.

Recommendation 2. OIG recommends that the Broadcasting Board of Governors notify the
Office of Management and Budget and OIG of its determination that performing payment
recapture audits for its programs in FY 2013 was not cost effective and provide the cost-benefit
analysis supporting this determination.




                                                9

                                                                                    Appendix A

                                 Scope and Methodology

       The Improper Payments Elimination and Recovery Act of2010 1 (IPERA), which
amended the Improper Payments Information Act of 20022 (IPIA), requires the Office of
Inspector General (OIG) to conduct an annual audit of the Broadcasting Board of Governors
(BBG) compliance with improper payments requirements. In accordance with the IPERA
requirement, OIG performed this audit to determine whether BBG was in compliance with IPIA,
as amended by IPERA.

        OIG's Office of Audits performed fieldwork from January to March 2014 at BBG's
Office of Financial Operations in Washington, DC. OIG conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objectives. OIG believes that the
evidence obtained provides a reasonable basis for the findings and conclusions based on the audit
objectives.

       To obtain background for the audit, OIG researched and reviewed legislative
requirements related to improper payments, Office of Management and Budget guidance,
information from BBG's external financial statement auditor, and BBG policies. In addition,
OIG reviewed and analyzed prior OIG audit work to identify information relating to improper
payments issues that had been reported previously.

        During the audit, OIG evaluated whether BBG had conducted a risk assessment for
significant programs; determined whether BBG had disclosed the required improper payments
information in its FY 2013 Performance and Accountability Report (PAR); and evaluated BBG' s
controls for preventing, detecting, and recapturing improper payments. To accomplish these
objectives, OIG interviewed BBG officials to gain an understanding ofBBG's processes for
performing its risk assessment, identifying improper payments, and reporting improper payments
information. OIG assessed BBG's policies and procedures for making payments, performing the
risk assessment, conducting payment reviews, and reporting improper payments information.
OIG also obtained and reviewed the documentation supporting the risk assessments and payment
reviews that were performed and reviewed the improper payments information disclosed in the
FY2013 PAR.




1
    Pub. L. No. 111-204.
2
    Pub. L. No. I 07-300.

                                               10 

                                      UNCLASSIFIED

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, 010 assessed the controls contained in BBO's policies and procedures for
making payments, performing risk assessments, and reporting improper payments information.
However, 010 did not perform testing of these controls because it was beyond the scope of this
audit.

Use of Computer-Processed Data

       010 obtained computer processed data, such as spreadsheets, to aid in determining
whether BBG had complied with IPIA. More specifically, the data provided evidence that BBG
had taken steps to comply with IPIA. 010, however, did not perform tests to validate the
spreadsheet amounts because such testing was not necessary to accomplish the audit objectives.




                                               11 

                                         UNCLASSIFIED
Broadnrsting B oard o{ Gm·c:•mors
INTERNATIONAL BROADCASTING                        HlJI~EAU




                                                           April 7, 2014

Mr. Norman Brown
Assistant Inspector General
Office of Inspector General
Department of State


Dear Mr. Brown:


We have received and reviewed the findings and recommendations contained in the draft report
of the Audit of Broadcasting Board of Governors FY 2013 Compliance with Improper Payments
Requirements. Overall we agree with the findings and recommendations, and are currently
working to resolve these issues. ln the enclosed, please find responses to each of the issues
identified by the Office of Inspector General (010).

Thank you for the opportunity to respond to this Audit Report. We take these recommendations
seriously, and will monitor the progress of each remediation. If you have any questions, please
                                     [Redacted] (b) (6)
feel free to contact me at (202)- 203­




                                                           Leslie yland
                                                           Chief Financial Ofticer




Enclosure: As Stated


J.l.O IJllkpcndcnn: Avenue. SW       Washington. DC 201.17


                                     UNCLASSIFIED

                                                    12 

                                     UNCLASSIFIED
                                                                                   Appendix B

Draft Audit of Broadcasting Board of Governors FY 2013 Con1pliance with Improper
Payn1ents Requirements
BBG Responses to Audit Recommendations

Recommendation l: OlG recommends that the Broadcasting Board of Governors (BBG)
develop and implement a methodology to strengthen its controls to ensure that BBG obtains and
maintains sufficient and complete supporting documentation for payments.

BBG Response: The BBG concurs with this recommendation. In collaboration with other
depmtments within the agency and by incorporating best practices, planning is underway to
address the issues of concern after evaluating the specitic areas that require improved
documentation, process enhancement, and/or additional oversight. Once these areas of weakness
are determined, management will create and implement a Corrective Action Plan (CAP) to begin
the remediation of improper payments discovered during the audit.

Recommendation 2: OlG recommends that the Broadcasting Board of Governors notify the
Offke of Managen1ent and Budget and OIG of its determination that performing payment
recapture audits for its programs was not cost effective and provide the cost-benefit analysis
supporting this determination.

BBG Response: The BBG concurs with this recommendation and is currently preparing its
submission to the Office of Management and Budget (OMB) and Office of Inspector General
(OIG) to present the results of our cost benefit analysis as required.




                                   UNCLASSIFIED
                                                                                                 2

                                           13 

                                   UNCLASSIFIED



Major Contributors to This Report

Gayle Voshell, Director
Division of Financial Management
Office of Audits

Todd Jones, Audit Manager
Division of Financial Management
Office of Audits

Margery Karlin, Senior Auditor
Division of Financial Management
Office of Audits




                                        14 

       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


          CONTACT THE

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

